HHS/OIG, Audit - "Review of Medicare Payments for Beneficiaries Incarcerated in the State of Michigan," (A-05-02-00029)
Department
of Health and Human Services
"Review of Medicare Payments for Beneficiaries Incarcerated in the State
of Michigan," (A-05-02-00029)
November 22, 2002
Complete
Text of Report is available in PDF format (374 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare fee-for-service
claims paid for beneficiaries incarcerated in Michigan during the 3-year period
of January 1, 1997 through December 31, 1999 were in compliance with Federal
regulations and Centers for Medicare & Medicaid Services guidelines. Michigan
was 1 of 10 States selected for review. Generally, no Medicare payments should
be made when a beneficiary is in State or local custody under a penal authority,
since the State or other government component is responsible for providing medical
care. We found in Michigan that three of the 100 sample claims were unallowable.
The sample also included 63 claims for beneficiaries in psychiatric hospitals
operated by the Michigan Department of Community Health. We determined that
these beneficiaries did qualify for Medicare coverage because under State law,
the beneficiaries were responsible for repayment of medical costs and the State
did pursue collection. Thirty additional claims in our sample were also allowable
because we believe the beneficiaries were not incarcerated on the day of the
medical service. We were unable to determine the incarceration status of the
beneficiaries for four claims in our sample.